Starter Classic Visa® Terms and Conditions
Important Information on Rates, Fees and Other Costs
 E ective 01-17-2018

Interest Rates and Interest
Charges
Variable Annual Percentage
Rate (APR) for Purchases,
Balance Transfers and Cash
Advances

Alert Me

18.00%
when you open your account.

Minimum Monthly Payment

2% of the outstanding balance or $40, whichever is
greater.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each
billing cycle. We will not charge you interest on purchases
if you pay your entire balance by the due date each
month.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying
for or using a credit card, visit the website of the
Consumer Financial Protection Bureau.

Fees

Alert Me

Annual Fee

$0

Transaction Fees

• Balance Transfer: $0
• Cash Advance: $0
• Foreign Transaction: Visa International Service
Assessment Fee
• Single Currency Transaction: 0.8% of transaction
• Multiple Currency Transaction: 1.0% of transaction

Penalty Fees

• Late Payment: $25 for the rst violation, $30 for the
next violation(s) during the next 6 billing cycles
• Overlimit: $0
• Return Payment: $0

Balance Computation Method

Average daily balance including new purchases.

Finance Charge

Calculated using monthly periodic data.

Advertised rate includes a 0.25% discount for automatic payments. Without Autopay, your annual percentage rate will
be 0.25% higher.

